18.
CERTIFICATE OF SERVICE
I hereby certify that on the 17th day of May, 2021 an electronic
copy of the foregoing brief was filed with the Clerk of Court for the
United States Supreme Court using USPS, and that service will be
accomplished by the appellate CM/ECF system.
Counsel for Appellees
Cynthia A Akatugba
Assistant Attorney General of Texas
General Litigation Division
300 W. 15th Street
Austin, TX 78701
512-475-4627
Cynthia.aktugba@oag.texas.gov

•

'

APPENDIX A

N,

V

